r

o.
i

IN THE SUPREME COURT OF THE UNITED STATES

JAMES VINCENT LIOTT,
Petitioner
U.S. BANK NATIONAL ASSOCIATION
AS TRUSTEE FOR CVI LCF MORTGAGE
LOAN TRUST 1,

FILED
Respondent
OFFICE OF THE CLERK
SUPREME COURT. U.S.

On Petition For Writ Of Certiorari
To The Supreme Court of Pennsylvania
Docket No. 600 MAL 2019

* PETITION FOR WRIT OF CERTIORARI *

James Vincent Liott
778 Waterway Road
Oxford, PA 19363

A

RECEIVED
OCT - 1 2021
V

QUESTIONS PRESENTED

Did the trial court properly rule on Petitioner's Preliminary
Objections to the Ejectment Action;
Answer: NO
The trial court did not consider the Petitioner's Concise Statements
of Errors Complained of on Appeal.
Should the trial court have considered the Petitioner's Concise
Statements of Errors Complained of on Appeal;
Answer: YES

See: Appendix-D and Appendix-E

l

i

A

'■

A

LIST OF PARTIES

All parties appear in the caption of the case on the cover page.

JAMES VINCENT LIOTT
Petitioner
U.S. BANK NATIONAL ASSOCIATION
AS TRUSTEE FOR CVI LCF MORTGAGE
LOAN TRUST 1,
Respondent

RELATED CASE
No. 2015-09793-RC

./ •
|

ii
■

•<

TABLE OF CONTENTS

QUESTIONS PRESENTED

i

LIST OF PARTIES

ii

TABLE OF CONTENTS.

iii

STATUTES AND RULES, TABLE OF AUTHORITIES, CITATIONS OF THE OFFICIAL AND
iv
UNOFFICIAL REPORTS OF OPINIONS AND ORDERS ENTERED IN THE CASE
OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4

REASONS FOR GRANTING THE WRIT

5

CONCLUSION

6
INDEX TO APPENDICES

APPENDIX A

Trial Court Order dated March 20, 2019.

APPENDIX B

Supreme Court of Pennsylvania Order dated October 1, 2020.

APPENDIX C

Trial Court Opinion dated June 11, 2019.

APPENDIX D

Trial Court Order dated November 9, 2017.

APPENDIX E

Concise Statements Of Errors Complained Of On Appeal.

APPENDIX F

Supreme Court of the United States letter dated July 30, '2021 .

APPENDIX G

Supreme Court of Pennsylvania Order dated March 11, 2020.

APPENDIX H

Superior Court of Pennsylvania dated June 19, 2019.

iii

STATUTES AND ROLES
TABLE OF AUTHORITIES
CITATIONS OF THE OFFICIAL AND UNOFFICIAL REPORTS
OF OPINIONS AND ORDERS ENTERED IN THE CASE
Pa.R.A.P. 1701 and 1702.
See: Appendix A,B,C, and D

iv

OPINIONS BELOW

The Opinion of the trial court appears at Appendix A to the petition.

1

JURISDICTION

The jurisdiction of this Court is invoked under 28 U.S.C. § 1257(a).

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

Due process rights under the Fourteenth Amendment of the United States
Constitution.

3

STATEMENT OF THE CASE

Petitioner raised three Preliminary Objections to the Civil ActionEjectment at Docket No. 2018-04083-RC.
The trial court ignored the Preliminary Objections.
The trial court also ignored the Concise Statements of Errors
Complained of on Appeal.
The forty four (44)

errors complained of were absolutely necessary

in order to present to the trial court the necessary facts.
The trial court had no jurisdiction to go forward with the ejectment
action.
See: Appendix-D and Appendix-E

4

REASONS FOR GRANTING THE PETITION

A compelling reason for this Court to grant this Petition for a
Writ of Certioari is that the trial court conflicts with the decision
of its own court.
It is clear in the trial court order dated November 9, 2017, that the
trial court had no jurisdiction.
See: Appendix-D and Appendix-E

5

CONCLUSION
The petition for a writ of certioari should be granted.

Respectfully submitted,

Pejteftiori'
Date: September 28, 2021

"v

6

